                   Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                                 CONTACT: James L. Porter
FRIDAY, OCTOBER 7, 2011                                               PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/

                   FEDERAL INMATE SENTENCED FOR TAX FRAUD

       A federal prisoner incarcerated at FCI Greenville was sentenced in U.S. District Court on
October 7, 2011, for Conspiracy to Commit Mail Fraud and Money Laundering, the United States
Attorney for the Southern District of Illinois, Stephen R. Wigginton, announced today.
       Michael S. Chaney, 41, originally from St. Charles, Missouri, was sentenced to 4 ½ years
imprisonment, restitution of $89,808 and three years of supervision upon his release from prison.
That sentence will be consecutive, or in addition to, two federal sentences that Chaney is presently
serving. Chaney is serving a 100 month sentence for a 2002, conviction for Possession of
Pseudoephedrine with the Intent to Manufacture Methamphetamine; and a 63 month sentence for
a 2004, conviction for Assaulting an Inmate within United States Penitentiary.
       Chaney was charged for participating in an income tax refund scheme where the participants
supplied fictitious tax returns and bogus IRS Forms W-2 to numerous state taxing authorities to
falsely claim that inmates - and inmates’ friends and family members - had earned income in those
states and overpaid their state income taxes, thereby entitling them to a tax refund. Chaney
personally completed fraudulent tax returns to eleven (11) different state taxing authorities in which
he attempted to defraud those states out of $164,288. Barbara J. Singletary, Chaney’s mother,
opened multiple bank accounts to receive the fraudulent refunds, which helped conceal the existence
of the scheme as well as the identity of the coconspirators. Chaney also used money obtained from
the tax refund scheme to purchase marijuana that was smuggled into the prison during visitation and
resold for a profit. Singletary pled guilty to participating in the conspiracy on August 24, 2011, and
is scheduled to be sentenced on December 16, 2011.
       The case was investigated by agents of the Internal Revenue Service, US Postal Inspection
Service, US Department of Justice Office of the Inspector General, Social Security Administration
Office of the Inspector General, US Department of Health and Human Services Office of the
Inspector General and the Federal Bureau of Investigation. The case is being prosecuted by Assistant
United States Attorney Steven D. Weinhoeft.
                                                 ###
